HHS/OIG-Audit--"Review of the New York State's Home Approval and Certification Process for Title IV-E Foster Care Homes Administered by the New York City Administration for Children and Services for the Period January 1, 1998 to December, (A-02-00-02001)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the New York State's Home Approval and Certification Process for Title IV-E Foster Care Home Administered
by the New York City Administration for Children and Services for the Period January 1, 1998 to December 31, 1998 ," (A-02-00-02001)
May 31, 2001
Complete
Text of Report is available in PDF format (732 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The New York State Department of Family Assistance (NYSDFA) and its local social services districts are responsible for
placing children in need of protection into foster care.  Under Title IV-E of the Social Security Act, Federal matching
of State foster care maintenance payments is available for children in foster care.  In order to claim reimbursement
from the Title IV-E program, the child must meet eligibility requirements and be placed in a foster boarding home that
met State requirements for licensing, certification and approval.  Based on our review, we found that the children
were residing in homes that were in compliance with foster care eligibility requirements related to boarding home certifications
and relative home approvals.